      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General


                                                                         Washington, D.C. 20201




June 28, 2011

TO:             Donald M. Berwick, M.D.
                Administrator
                Centers for Medicare & Medicaid Services


FROM:           /Lori S. Pilcher/
                Acting Deputy Inspector General for Audit Services


SUBJECT:        Nebraska Medicaid Payments for Personal Care Services (A-07-10-03152)


Attached, for your information, is an advance copy of our final report on personal care services
claims in the Nebraska Medicaid program. We will issue this report to the Nebraska Department
of Health & Human Services within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or
Patrick J. Cogley, Regional Inspector General for Audit Services, Region VII, at (816) 426-3591
or through email at Patrick.Cogley@oig.hhs.gov. Please refer to report number A-07-10-03152.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                  Office of Inspector General

                                                                           Office of Audit Services, Region VII
                                                                           601 East 12th Street, Room 0429
                                                                           Kansas City, MO 64106



July 5, 2011

Report Number: A-07-10-03152

Ms. Vivianne Chaumont
Director, Division of Medicaid & Long Term Care
Nebraska Department of Health & Human Services
301 Centennial Mall South, 3rd Floor
P.O. Box 95026
Lincoln, NE 68509-5026

Dear Ms. Chaumont:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Nebraska Medicaid Payments for Personal Care Services.
We will forward a copy of this report to the HHS action official noted on the following page for
review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Greg Tambke, Audit Manager, at (573) 893-8338, extension 30, or through email at
Greg.Tambke@oig.hhs.gov. Please refer to report number A-07-10-03152 in all
correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Vivianne Chaumont


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




    NEBRASKA MEDICAID
      PAYMENTS FOR
  PERSONAL CARE SERVICES




                      Daniel R. Levinson
                       Inspector General

                          July 2011
                        A-07-10-03152
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

In Nebraska, the Department of Health & Human Services (State agency) is responsible for
administering the Medicaid program. Social service workers in local offices authorize personal
care services (PCS) requested by beneficiaries. Authorized PCS are detailed in a Service Needs
Assessment/Plan (SNA).

The State agency must comply with certain Federal and State requirements in determining and
redetermining whether beneficiaries are eligible for PCS. Pursuant to section 1905(a)(24) of the
Act and implementing Federal regulation (42 CFR § 440.167), PCS must be (1) authorized for an
individual by a physician in a plan of treatment or in accordance with a service plan approved by
the individual State; (2) provided by an individual who is qualified to provide such services and
who is not a member of the individual’s family; and (3) furnished in a home or, at the State’s
option, in another location.

OBJECTIVE

Our objective was to determine whether the State agency claimed Federal Medicaid
reimbursement for PCS from January 1, 2007, through June 30, 2009, in accordance with Federal
and State requirements.

SUMMARY OF FINDINGS

The State agency did not always claim Federal Medicaid reimbursement for PCS claims in
accordance with Federal and State requirements. Of the 100 paid claims in our random sample,
portions of 11 claims were not allowable because of inaccurate or missing documentation, and
portions of 87 claims may have been unallowable because providers’ billing documentation
differed significantly from the beneficiaries’ SNAs. Specifically, of the 100 paid claims in our
random sample, 5 claims had inaccurate or missing documentation, 81 claims had potentially
unallowable costs, and 6 claims had both inaccurate documentation and potentially unallowable
costs. We found no errors in 8 of the 100 claims.

In addition to our random sample, our computer data match identified 464 instances in which
providers billed for PCS during the beneficiaries’ inpatient hospital stays.




                                                i
Based on the unallowable portions of the claims that we identified in our random sample and the
results of our computer data match, we estimated that the State agency improperly claimed a
total of $275,485 ($168,652 Federal share) in Medicaid reimbursement. In addition, based on
the potentially unallowable portion of the claims that we identified in our random sample, we
estimated that the State agency claimed $7,415,003 ($4,482,438 Federal share) for PCS that may
not have been allowable in accordance with Federal and State requirements.

These errors and potential errors occurred because of inadequate prepayment and postpayment
claim reviews.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $168,652 to the Federal Government;

   •   work with CMS to determine whether payment and service documentation fully complied
       with Federal and State requirements and, if not, determine what portion of the $4,482,438
       (Federal share) in set-aside costs should be refunded to the Federal Government; and

   •   strengthen controls by developing policies and procedures for more substantive
       documentation and prepayment and postpayment claim review to ensure that PCS claims
       are reviewed and paid in accordance with Federal and State requirements.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency described corrective action that it had
taken or planned to take. Specifically, the State agency said that it would refund $168,652 to the
Federal Government and added, in reference to our second recommendation, that it would work
in cooperation with CMS to address any concerns with payment and service documentation. In
reference to our third recommendation, the State agency described improved controls that it had
implemented or was planning to implement to ensure that Medicaid payments comply with
Federal and State requirements. The State agency’s comments are included in their entirety as
Appendix C.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicaid Program ................................................................................................1
              Federal and State Requirements Related to Personal Care Services ...................1
              Nebraska’s Medicaid Personal Care Services Program .......................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................3
               Objective ..............................................................................................................3
               Scope ....................................................................................................................3
               Methodology ........................................................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................4

          UNALLOWABLE AND POTENTIALLY UNALLOWABLE COSTS ........................5
              Unallowable Costs ...............................................................................................5
              Potentially Unallowable Costs .............................................................................6

          UNALLOWABLE BILLING FOR PERSONAL CARE SERVICES
            DURING INPATIENT HOSPITAL STAYS .............................................................7

          INADEQUATE CONTROLS .........................................................................................8

          UNALLOWABLE MEDICAID REIMBURSEMENT...................................................8

          RECOMMENDATIONS .................................................................................................8

          STATE AGENCY COMMENTS ....................................................................................8

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: STATE AGENCY COMMENTS




                                                                    iii
                                               INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

In Nebraska, the Department of Health & Human Services (State agency) is responsible for
administering the Medicaid program. The State agency’s Federal medical assistance percentage
(FMAP) rate ranged from 57.93 percent to 58.02 percent for claims paid from January 1, 2007,
through September 30, 2008. 1 For the period October 1, 2008, through June 30, 2009, the State
agency’s temporarily increased FMAP under the provisions of the Recovery Act ranged from
65.74 percent to 67.79 percent.

Federal and State Requirements Related to Personal Care Services

The State agency must comply with certain Federal and State requirements in determining and
redetermining whether beneficiaries are eligible for personal care services (PCS). Pursuant to
section 1905(a)(24) of the Act and implementing Federal regulations (42 CFR § 440.167), PCS
must be (1) authorized for an individual by a physician in a plan of treatment or in accordance
with a service plan approved by the individual State; (2) provided by an individual who is
qualified to provide such services and who is not a member of the individual’s family; and
(3) furnished in a home or, at the State’s option, in another location. 2

Pursuant to section 1902(a)(27) of the Act, every person or institution providing services under
the State plan must keep records necessary to fully disclose the extent of services provided for
individuals receiving assistance under the State plan. Additionally, section 1902(a)(37)(B) of the
Act requires States to have procedures for prepayment and postpayment claim review, including
review of appropriate data about providers, patients, and the nature of the services for which
payments are claimed.



1
 Pursuant to the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), as amended by
P.L. No. 111-226, States’ FMAPs were temporarily increased for the period October 1, 2008, through June 30, 2011.
2
  Federal requirements further clarify these provisions by stating that “[f]or purposes of this section, family member
means a legally responsible relative [emphasis in original]” (42 CFR § 440.167(b)). A “legally responsible relative”
is defined in 471 Nebraska Administrative Code (NAC) 15-003.02 as a spouse or parent of a child under 18 years of
age.


                                                          1
In addition to Federal requirements, 471 NAC, chapter 15, details the State requirements for
PCS.

Nebraska’s Medicaid Personal Care Services Program

The NAC refers to PCS as “personal assistance services” and defines them as tasks that provide a
beneficiary’s activities of daily living, as well as certain other related activities (471 NAC
15-003.01). Pursuant to 471 NAC 15-003.01, the State agency administers five main categories
of PCS: (1) basic personal hygiene; (2) toileting/bowel and bladder care; (3) mobility, transfers,
and comfort; (4) nutrition; and (5) medications. When any of these services are essential to
enable the beneficiary to remain in the home and community, certain supportive services may
also be provided: specifically, housekeeping and accompanying and assisting the beneficiary
during physician office visits.3

The State agency provides social service workers to oversee the provision of PCS in more than
100 local offices statewide. Social service workers in the local offices are responsible for
authorizing PCS to Medicaid-eligible individuals. The workers use a software program called
Nebraska Family On-line Client User System (N-FOCUS) for activities such as intake, eligibility
determinations, payments, and monitoring ongoing services.

A Medicaid beneficiary initiates PCS by discussing his or her needs with a social service worker.
If the social service worker determines that PCS are warranted, he or she develops a State-
approved service plan, known as the Service Needs Assessment/Plan (SNA). The SNA
authorizes specific services with designated frequencies per week, as well as an estimated
amount of time to complete each service. A beneficiary’s SNA may authorize the provision of
PCS for up to 12 months before recertification is necessary.

Beneficiaries receive PCS after their chosen providers successfully complete the State’s provider
approval process. Providers record on timesheets arrival and departure times and a description
of services provided. Providers may receive payment only for services provided “within the
parameters” of the SNA (471 NAC 15-006.6C). Providers record timesheet hours on their
billing documents in quarter-hour units (a 40-hour workweek is thus 160 quarter-hour units); the
providers also attach the timesheets themselves to the billing documents as supporting
documentation. 4 Providers then obtain verifying signatures from the beneficiaries, after which
the providers submit billing documents and timesheets to the State agency. In turn, the State
agency reviews billing document hours to ensure that providers bill within the parameters for the
services and time allotments outlined in each beneficiary’s SNA. The State agency then enters
the approved billing documents into N-FOCUS for payment.

3
 In addition, PCS may be offered to a beneficiary under one of two circumstances: (1) when an attending physician
or registered nurse determines that specialized procedures called “health maintenance activities” can be safely
performed by a provider in the home and community or (2) when needed to maintain competitive integrated
employment or to attend an adult day care program, a beneficiary may be provided PCS outside the home (that is, at
his or her worksite, on work-related travel, or when residing in a licensed residential service program).
4
 To calculate the maximum hours billable in a week, each service’s frequency is multiplied by its estimated amount
of time to complete that service; the results for each authorized service are then summed.


                                                        2
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed Federal Medicaid
reimbursement for PCS from January 1, 2007, through June 30, 2009, in accordance with Federal
and State requirements.

Scope

We reviewed the State agency’s PCS claim payments for the period January 1, 2007, through
June 30, 2009. Our audit population consisted of 136,975 claims totaling $32,765,957
($19,917,229 Federal share) that the State agency claimed for Federal reimbursement.

We did not review the overall internal control structure of the State agency or the Medicaid
program. Rather, we reviewed the State agency’s internal controls to the extent necessary to
accomplish our objective.

We performed our fieldwork from July 2009 through June 2010 at the State agency in Lincoln,
Nebraska, and at various local offices throughout Nebraska.

Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal and State requirements;

    •   held discussions with State agency officials to gain an understanding of the PCS program
        requirements and the State agency’s role in overseeing the program;

    •   requested and received PCS claim data, which totaled 136,975 data records, each
        equaling 1 PCS claim;

    •   selected and reviewed a simple random sample of 100 paid claims from our population of
        136,975 PCS claims (Appendixes A and B) and, for each sampled claim:

            o converted the time to complete each authorized service, as reflected on a
              beneficiary’s SNA, into quarter-hour increments; 5

            o calculated provider hours using the beneficiary’s SNA and the provider’s
              description of services provided;


5
  We rounded each SNA service in our random sample up to the nearest 15-minute increment. For example,
brushing teeth was rounded up from 5 minutes to 15 minutes, or meal preparation was rounded up from 20 minutes
to 30 minutes.


                                                       3
             o reviewed the beneficiary’s case file;

             o compared billing documents with attached timesheets to identify errors; and

             o determined the amount in error for each of the 100 sampled claims;

    •   performed a computer data match comparing periods when beneficiaries were hospital
        inpatients with the service periods for which providers billed for PCS and identified 464
        instances (outside of our random sample) in which providers billed for PCS during the
        beneficiaries’ inpatient hospital stays;

    •   for each instance with matching service periods, 6 reviewed and verified the service
        periods in which beneficiaries were hospital inpatients and compared the service periods
        that providers billed to the corresponding beneficiaries’ inpatient hospital stays; 7

    •   computed the overpayment amount by estimating the unallowable errors at the lower
        limit of the 90-percent confidence interval and adding the results of the errors identified
        in the data match; and

    •   discussed our results with State agency officials on September 16, 2010.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATIONS

The State agency did not always claim Federal Medicaid reimbursement for PCS claims in
accordance with Federal and State requirements. Of the 100 paid claims in our random sample,
portions of 11 claims were not allowable because of inaccurate or missing documentation, and
portions of 87 claims may have been unallowable because providers’ billing documentation
differed significantly from the beneficiaries’ SNAs. Specifically, of the 100 paid claims in our
random sample, 5 claims had inaccurate or missing documentation, 81 claims had potentially
unallowable costs, and 6 claims had both inaccurate documentation and potentially unallowable
costs. We found no errors in 8 of the 100 claims.

In addition to our random sample, our computer data match identified 464 instances in which
providers billed for PCS during the beneficiaries’ inpatient hospital stays.

6
 The term “service period” refers to the timespan of 1 or more days a provider billed for PCS. For the data match,
we identified 1,307 periods when beneficiaries were hospital inpatients. We compared those periods with service
periods for which providers might have billed for PCS.
7
 Because a beneficiary could have received PCS on the date of admission and/or date of discharge of an inpatient
hospital stay, we excluded those matches from our review.

                                                         4
Based on the unallowable portions of the claims that we identified in our random sample and the
results of our computer data match, we estimated that the State agency improperly claimed a
total of $275,485 ($168,652 Federal share) in Medicaid reimbursement. In addition, based on
the potentially unallowable portion of the claims that we identified in our random sample, we
estimated that the State agency claimed $7,415,003 ($4,482,438 Federal share) for PCS that may
not have been allowable in accordance with Federal and State requirements.

These errors and potential errors occurred because of inadequate prepayment and postpayment
claim reviews.

UNALLOWABLE AND POTENTIALLY UNALLOWABLE COSTS

Unallowable Costs

Federal and State Requirements

Section 1902(a)(27) of the Act states that every person or institution providing services under the
State Medicaid plan must keep records necessary to fully disclose the extent of services provided
to individuals receiving assistance under the State plan.

Section 1902(a)(37)(B) of the Act requires States to have procedures for prepayment and
postpayment claims review, including review of appropriate data about providers, patients, and
the nature of the services for which payments are claimed.

State requirements (471 NAC 15-006.06C) state that after receiving a provider’s timesheet and
billing document, the beneficiary’s social service worker or designee must verify that “… the
hours worked and services provided fall within the parameters of those authorized …” by the
SNA.

State requirements (471 NAC 15-006.06) state that to receive payment after PCS are provided,
the provider must complete a billing document for each client receiving services for the same
time period as that reflected on the timesheet for that client.

Inaccurate or Missing Documentation

Our review of the 100 paid claims in our random sample showed that portions of 11 claims
totaling $941 ($552 Federal share) were not allowable because of inaccurate or missing
documentation. Based on our random sample, we estimated that the State agency claimed
$229,636 ($141,088 Federal share) for PCS that were not allowable in accordance with Federal
and State requirements.

Inaccurate Provider Billing

For eight claims totaling $175 ($108 Federal share), entries on providers’ billing documents as to
time spent providing PCS did not agree with the corresponding entries on the providers’ weekly
timesheets. The following examples illustrate the incorrect entries:

                                                 5
   •   Provider A documented 2 days of service on the timesheet at 5 hours per day, for a total
       of 10 hours. However, the provider billed 16 hours on the billing document. Because the
       provider’s timesheet indicated that 10 hours were provided, 6 hours were unallowable.

   •   Provider B documented 3 hours of service on the timesheet. However, the provider billed
       4 hours on the billing document. Because the provider’s timesheet indicated that 3 hours
       were provided, 1 hour was unallowable.

Duplicated Provider Billing

For one claim totaling $355 ($206 Federal share), the provider used the same timesheet to bill for
more than one service period. Specifically, Provider C used the timesheet from a single service
period (September 8 through September 14, 2008) as supporting documentation for at least three
billing documents. Only the claims for the period September 8 through September 14, 2008,
were allowable.

Missing Documentation

For two claims totaling $410 ($238 Federal share), the State agency did not provide any
documentation to support the PCS claimed for Federal reimbursement. Consequently, both
claims in their entirety were unallowable.

Potentially Unallowable Costs

Federal and State Requirements

Section 1902(a)(27) of the Act states that every person or institution providing services under the
State Medicaid plan must keep records necessary to fully disclose the extent of services provided
to individuals receiving assistance under the State plan. In addition, section 1902(a)(30)(A) of
the Act requires State Medicaid plans to provide methods and procedures “… to assure that
payments are consistent with efficiency, economy, and quality of care ….”

State requirements (471 NAC 15-006.06) state that to receive payment for PCS, providers must
complete a form that documents arrival and departure times and contains a description of
services provided each day.

State requirements (471 NAC 15-003.02) state that PCS do not include services not documented
in the SNA and do not include companion services, which provide for a person to be present
without completing specific tasks.

Inconsistent Description of Services Provided

Our review of the 100 paid claims in our random sample showed that, for a portion of each of 87
claims, providers billed for services and time allotments that differed significantly from those
laid out in the beneficiaries’ SNAs. For these 87 claims, the information varied enough from the
nature and extent of PCS authorized in the SNA for us to question some portion of the claim.

                                                 6
For example, a beneficiary’s SNA approved 18 hours per week of PCS, and the provider billed
for 18 hours of PCS. We compared the services documented on the provider’s timesheet with
the services authorized on the beneficiary’s SNA. On one day, the provider billed 3 hours for
washing dishes, cleaning the kitchen, mopping the floor, and cleaning the stove. Only one
service (washing dishes) was authorized on the SNA. The time allotted on the SNA for washing
dishes was 20 minutes, which we rounded up to 30 minutes. Although the other billed services
did not match services specified on the SNA, we classified them as “cleaning other living areas,”
for which the SNA allotted 30 minutes. The discrepancy between the services and time
allotments laid out on the SNA (1 hour) and on the timesheet and billing document (3 hours) was
significant enough to call the 2-hour difference into question.

The description of the services provided did not support the services authorized on the SNA for
portions of 87 of the 100 paid claims in our random sample. Without more substantive
documentation, we could not determine whether the providers were providing services
authorized by the SNA or whether they were providing other services that were not authorized
by the SNA. Because the State agency made payments on the basis of billing documents and
timesheets that differed significantly from the PCS outlined on the SNA, we are setting aside
$7,415,003 ($4,482,438 Federal share) associated with the potentially unallowable portion of
these claims for CMS adjudication.

UNALLOWABLE BILLING FOR PERSONAL CARE SERVICES
DURING INPATIENT HOSPITAL STAYS

Section 1905(a)(24) of the Act authorizes payment for PCS “… furnished to an individual who is
not an inpatient or resident of a hospital, nursing facility, intermediate care facility for the
mentally retarded, or institution for mental disease ….”

State requirements (471 NAC 15-004.01) state that to be eligible for PCS, a beneficiary must
meet several criteria, one of which is that he or she live in a residence that is not a hospital,
nursing facility, intermediate care facility, prison, or other institution.

Our computer data match identified 464 instances in which providers billed for PCS during the
beneficiaries’ inpatient hospital stays. The State agency improperly claimed $45,849 ($27,564
Federal share) for these 464 instances. 8

For example, a beneficiary suffered a stroke and was a hospital inpatient from April 20 through
April 24, 2008. The provider billed $491 ($285 Federal share) for services rendered to the
beneficiary for the period April 16 through April 22, 2008. On April 21 and April 22, 2008—
days on which the beneficiary was an inpatient—the provider billed for the following services:
made breakfast, administered medications, bathed, dressed, pinned hair, changed bedding,
washed laundry, made lunch, cleaned, made dinner, and dressed for bed. There was an overlap
of services (both inpatient hospital services and PCS) on these 2 days, resulting in an improper
payment of $181 ($105 Federal share).


8
  In computing these unallowable costs, we did not use the dates of admission and/or dates of discharge of inpatient
stays.

                                                          7
INADEQUATE CONTROLS

These errors may continue to occur unless prepayment and postpayment claim review is
strengthened. According to State agency officials, providers are not subject to regular oversight
visits by the State agency. Oversight of providers is generally performed by beneficiaries
themselves, who confirm the accuracy of their providers’ billing documentation; the State
agency verifies that the hours worked fell within the parameters authorized by the SNA and then
processes the documentation for payment based on the beneficiaries’ confirmation. State agency
staff members conduct varying levels of review as part of this payment process. In addition, we
were not able to identify any policies and procedures that governed State agency review of
billing documentation, particularly with respect to services provided.

UNALLOWABLE MEDICAID REIMBURSEMENT

Based on the unallowable portion of the claims that we identified in our random sample and the
results of our computer data match, we estimated that the State agency improperly claimed a
total of $275,485 ($168,652 Federal share) in Medicaid reimbursement. In addition, based on
the potentially unallowable portion of the claims that we identified in our random sample, we
estimated that the State agency claimed $7,415,003 ($4,482,438 Federal share) for PCS that may
not have been allowable in accordance with Federal and State requirements.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $168,652 to the Federal Government;

   •   work with CMS to determine whether payment and service documentation fully complied
       with Federal and State requirements and, if not, determine what portion of the $4,482,438
       (Federal share) in set-aside costs should be refunded to the Federal Government; and

   •   strengthen controls by developing policies and procedures for more substantive
       documentation and prepayment and postpayment claim review to ensure that PCS claims
       are reviewed and paid in accordance with Federal and State requirements.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency described corrective action that it had
taken or planned to take. Specifically, the State agency said that it would refund $168,652 to the
Federal Government and added, in reference to our second recommendation, that it would work
in cooperation with CMS to address any concerns with payment and service documentation. In
reference to our third recommendation, the State agency described improved controls that it had
implemented or was planning to implement to ensure that Medicaid payments comply with
Federal and State requirements. The State agency’s comments are included in their entirety as
Appendix C.


                                                8
APPENDIXES
                                                                                      Page 1 of 2


                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of paid claims representing personal care services (PCS) provided by a
beneficiary’s chosen provider and paid by the Nebraska Department of Health & Human
Services (State agency) for the period January 1, 2007, through June 30, 2009.

SAMPLING FRAME

The sampling frame was a database of 136,975 lines of paid claims totaling $32,765,957
($19,917,229 Federal share) representing PCS provided by a beneficiary’s chosen provider and
paid by the State agency for the period January 1, 2007, through June 30, 2009.

A paid claim is an individual line from the provider billing document that indicates when the
service was provided, the payment amount, the claim identification, the line number, the service
period, the recipient (beneficiary), and the provider involved. For example, a provider’s billing
document had five lines of data. Each line represented a service period. Every service period
represented one line in our database (a paid claim).

SAMPLE UNIT

A sample unit was one line of a provider billing document (for PCS during a given time period)
paid by the State agency.

SAMPLE DESIGN

We used a simple random sample from the 136,975 claims that the State agency submitted for
Federal reimbursement for the period January 1, 2007, through June 30, 2009.

SAMPLE SIZE

We selected 100 sample units (claims) for review.

SOURCE OF THE RANDOM NUMBERS

We generated random numbers using the Office of Inspector General, Office of Audit Services,
statistical software RAT-STATS.
                                                                                   Page 2 of 2


ESTIMATION METHODOLOGY

We used the variable appraisal program in RAT-STATS to estimate the unallowable payments
for PCS. Because the Federal medical assistance percentage (FMAP) matching rate varied from
year to year, we also used the RAT-STATS variable appraisal program to estimate the total
FMAP reimbursed to Nebraska for unallowable PCS. We calculated the FMAP amount for each
sample item by applying the applicable FMAP rate to the total amount determined to be in error
for the sample item.
                  APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                    SAMPLE RESULTS


                                                    Number      Total         Value of
                 Frame       Value of     Sample      of       Value of        Errors
                  Size        Frame        Size     Errors     Sample      (Federal Share)




Unallowable      136,975   $32,765,957      100        11       $22,302        $552


Potentially      136,975    32,765,957      100        87        22,302        3,893
unallowable


                         ESTIMATES OF UNALLOWABLE AND
                     POTENTIALLY UNALLOWABLE PAYMENTS
                  (Limits Calculated for the 90-Percent Confidence Interval)

                            Unallowable Costs           Potentially Unallowable Costs
Point estimate                 $756,141                         $5,331,810
Lower limit                     141,088                          4,482,438
Upper limit                   1,371,195                          6,181,183
                                                                                                               Page 1 of 2


                       APPENDIX C: STATE AGENCY COMMENTS 




• .rDH}iIItL               DiviaionofMet1Icaid and Long-TilEn Care                                State of Ne.braska
Nebr.so D~ot ....Ith------------':::'--------------o-av-e-H-etnem-·
                                                                 --an-,-G-ov-e-mo-r
   and H _ SeIvIHtI




        May 20, 2011




        Patrick J. Cogley
        Regional Inspector General for Audit Services
        Office of Inspector General
        Department of Health and Human Services, Region VII
        60 I East 12'h Street, Room 0429
        Kansas City, Missouri 64106

        RE: RepOJ1 Number A-07-1O-031S2

        Dear Mr. Cogley:

       The Nebraska Department of Health and Human Services (DHHS) Division of Medicaid and
       Long-Tenn Care is pleased to have the opportunity to respond to the Draft Audit Report entitled
       Nebraska Medicaid Payments for Personal Care Services. DHHS strives to administer Medicaid
       reimbursement in compliance with cun'ent Federal and State law, policies, and procedures and is
       committed to working to resolve the issues identified in this audit review.

        DHHS is also appreciative of the hard work on the part of OIG staff to gather information from
        staff and providers. Your observations are important in helping improve policies and procedures
        already in place and ensure continued compliance. DHHS' specific responses to each of the
        preliminary findings and recommendations identifted in the Drall Audit Report follow.

        OIG RECOMMENDATlON #1: Refund $168.652 to the Federal Government for unallowable
        Personal Care Services (PSC) claims.

        DHHS RESPONSE: DI-lHS will refund this amount to the federal government.

       OIG RECOMMENDATION #2: Work with CMS to determine whether payment and service
       documentation fully complied with Federal and State requirements and, jf not, determine what
       portion of the $4,482,438 (Federal share) in set"aside costs should be refunded to the Federal
       Government.

       DHHS RESPONSE: Nebraska Medicaid payment and service documentation is in compliance
       with Federal and State requirements. DHHS will work in cooperation with CMS to address any
       concerns with payment and service documentation.




                                           Helping PeOple LJVtI Belter Lives
                                           An EflWtI OpPOlf'.P1fJilli.!f,r;r,(f~"'II ~cf"'fI e~
                                                 _~ed~!      v:.v iT¥> O!~ '(h'_i4-Wct ~f
                                                                                                     Page 2 of 2




OIG RECOMMENDATION #3: Strengthen controls by developing policies and procedures
for more substantive documentation and prepayment and post-payment claim review to ensure
that PCS claims are reviewed and paid in accordance with Federal and State requirements.

DHHS RESPONSE: DHHS plans to continue to build on the improvements already
implemented to ensure that Medicaid payment complies with Federal and State requirements. As
discussed with the oro auditors, several measures to increase operational efficiency and
accuracy were enacted prior to the audit or are currently being developed, including the
following:

   1) 	 In April 2008, a Memo was sent from the Director of the Division of Medicaid and Long­
        Term Care to the DHHS Service Areas to clarify that payment for PSC during an
        inpatient stay in a hospital, nursing or intermediate care facility institution for mental
        disease is not allowable pursuant to federal or state regulatiorts.
   2) 	 In May 2009, DHHS terminated the PSC contract with the Eastern Nebraska Office on
        Aging. Several of the issues identified by this audit occurred during the time of this
        contract.
   3) 	 DHHS is in the process of systematically moving to UniversalcaseloaQs and away from
        assigned caseloads. This will provide variance in PSC client aS$,cssments and billing
        document review and should address the 010 auditors' concern about caseworker bias or
        fraud in relation to clients on their caseload.
   4) 	 DHHS is reviewing processes and procedures and making recommendations on strategies
        for increasing statewide uniformity and consistency for services that use individual
        providers.
   5) DHHS is exploring options to identify and deny inappropriate PSC claims, including
        duplication with inpatient stays.
   6) DHHS is exploring options to modify PSC billing processes to improve accuracy and
        compliance.

Should you have any questions, do not hesitate to contact me.

Sincerely,


 ~~
Vivianne M. Chaumont, Director
Division of Medicaid & Long-Term Care
Department of Health and Human Services
